                    November 27, 2000

                    DONNA M. PEAK
                    VICE PRESIDENT, FINANCE, CONTROLLER

                    SUBJECT:	 Review of Indemnity Claims Process Redesign
                              (Report Number OS-MA-01-001)

                    This management advisory report presents the results of
                    our review of the functional requirements of the indemnity
                    claims process redesign (Project Number 00PR009SO000).
                    The review was initiated to evaluate system controls during
                    the redesign of the indemnity claims process. We are
                    providing this interim report so you can consider our
                    suggestions for improving customer service and internal
                    controls as the system is developed.

Results in Brief	   We concluded that controls over the redesigned indemnity
                    claims process were generally adequate. However, our
                    review of the functional requirements for the new Customer
                    Claims Response System identified opportunities for
                    improvement in the following areas:

                    •   Customer service
                    •   Product tracking
                    •   Record retention
                    •   Reliability of insurance claims data

                    The report provides eight suggestions to address these
                    issues.

Background 	        Postal Service customers insure packages through various
                    Postal Service special service product lines, such as
                    insured, registered, collect on delivery, and Express Mail to
                    protect against loss and damage. Approximately 250,000
                    insurance claims are filed each year for loss or damage.
Indemnity Claims Process Redesign                                               OS-MA-01-001




                              In fiscal year (FY) 1999, 128,088 domestic claims for lost
                              and damaged items were reviewed and paid by the
                              St. Louis Accounting Service Center. Processing claims
                              was time consuming and was a driving force behind this
                              redesign process.

                              Postal Service officials believe a long processing time for
                              claims resulted in poor customer service and lost revenues
                              because competitors had shorter processing times. As a
                              result, business mailers chose commercial insurance
                              services over Postal Service insurance services to expedite
                              the reimbursement for loss and damage.

                              The redesigned claim system, called the Customer Claims
                              Response System, will allow Postal Service employees to
                              enter claims on-line using web technology. Employees at
                              local post offices will input claims data into the new system
                              directly via the web or by dialing an 800 number. The
                              Customer Claims Response System will generate a
                              transaction for the Accounts Payable Account Reporting
                              System and the payment will be processed if all edit checks
                              are satisfied. The system is designed to improve claims
                              processing response time.

 Objective, Scope, and        The objective of our review was to evaluate the
 Methodology                  effectiveness of system controls during the redesign of the
                              indemnity claims process. To accomplish our objective, we
                              interviewed St. Louis Accounting Service Center employees
                              in charge of the system redesign, attended meetings of the
                              functional design team, interviewed the Inspection Service
                              manager of Internal Crimes, and analyzed the FY 1999
                              claims master files. We also analyzed the internal controls
                              proposed for the Customer Claims Response System.

                              We conducted our review between February and
                              November 2000, in accordance with the President’s Council
                              on Integrity and Efficiency, Quality Standards for
                              Inspections. We discussed our conclusions and
                              observations with the appropriate management officials and
                              included their comments, where appropriate.




                                               2
Indemnity Claims Process Redesign	                                             OS-MA-01-001




 Customer Claims              We concluded that controls over the redesigned indemnity
 Response System              claims process were generally adequate. The process,
                              when implemented, will improve customer service and
                              reduce processing time for claims. However, we identified
                              several opportunities to further improve customer service,
                              product tracking, record retention, and the reliability of
                              insurance claims data.

 Customer Service             Customer service could be improved by making insurance
                              claim forms and instructions available on the Postal
                              Service’s web site and the Corporate Call Management
                              System.

                              The indemnity claims process was redesigned to reduce the
                              time necessary to adjudicate claims and issue payments.
                              However, customers potentially could make multiple trips to
                              a post office--one trip to obtain the form and instructions,
                              and a second trip to provide necessary proof of mailing and
                              evidence of value. This process is inconsistent with Postal
                              Service’s Voice of the Customer goal to make products
                              easy to use.

                              Customer service could be improved if claim forms and
                              instructions were made available to customers through the
                              use of current Postal Service web technology and the
                              established corporate call network. To illustrate:

                              •	 Customers could use the Postal Service web site to
                                 obtain the necessary instructions and print a copy of the
                                 claim form.

                              •	 Customers could also use the Corporate Call
                                 Management System to request necessary forms and
                                 instructions. Necessary forms and instructions could be
                                 mailed or faxed to customers when the center is
                                 contacted.

                              We noted during our review that postal management
                              planned to conduct a survey to determine whether customer
                              service was improved as a result of the redesigned claims
                              process.




                                              3
Indemnity Claims Process Redesign	                                              OS-MA-01-001




 Suggestion 	                 We suggest that the vice president, Finance, Controller:

                              1. In coordination with the vice president, Information
                                 Technology, develop a web application that allows
                                 customers to obtain insurance claim forms and
                                 instructions directly from the Postal Service web site.

 Management’s 	               Management agreed with our suggestion to develop a web
 Comments 	                   application. The enablers business systems portfolio will
                              add the insurance claim form to the Postal Service business
                              forms web page when the new claims system is deployed.

 Suggestion                   2. In coordination with the vice president, Information
                                 Platform, implement a system that would supply
                                 insurance claim information, instructions, and forms by
                                 mail or fax to customers.

 Management’s                 Management disagreed that a new system should be
 Comments                     implemented to supply forms and instructions to customers.
                              As an alternative, management recommended using the St.
                              Louis Accounting Service Center to distribute claim forms
                              and instructions to customers by mail. Customers can
                              obtain a claim form by calling the accounting service
                              center’s 800 number, which will be listed in the Customer
                              Guide for Filing a Claim.

 Evaluation of                Management’s planned actions are responsive to
 Management’s                 suggestion one. Although management disagreed with
 Comments                     suggestion two, they proposed an alternative action that
                              meets the intent of our suggestion.




                                               4
Indemnity Claims Process Redesign                                                OS-MA-01-001




 Product Tracking             Product tracking enhancements would reduce losses of
                              insured mail and provide information to assist in the
                              reduction of internal crimes.

                              Originally proposals made in March 2000, for the new
                              Customer Claims Response System used the Product
                              Tracking System to confirm delivery, but the functional
                              requirements for the system did not require identification of
                              the facility that accepted the insured mail. At the urging of
                              the OIG and Postal Inspection Service, functional
                              requirements were revised in April 2000 to identify the
                              originating post office.

                              The existing claims process tracked insured mail manually.
                              Once a claim was filed, a copy of the claim form was
                              forwarded to the delivery post office, but employees were
                              not required to identify the post office that accepted the
                              insured mail. This manual process made it difficult to track
                              missing mail.

                              The Postal Service’s Product Tracking System has the
                              capability to identify the entry point, not only for insured
                              mail, but also for all accountable mail. However, the
                              Customer Claims Response System, as currently
                              envisioned, will not utilize the Product Tracking System to
                              identify the post office where the insured article entered into
                              the postal system.

                              Officials working on the Point of Service ONE System
                              confirmed that the finance number and unit identification
                              number, which identifies where an insured article entered
                              the postal system, were captured for all accountable mail.
                              Product Tracking System personnel further advised us that
                              the new Point of Service One equipment would be capable
                              of tracking not only insured mail but also accountable mail.
                              However, they said that the older integrated retail terminals
                              were not capable of capturing this information.

                              The Postal Inspection Service manager of Internal Crimes
                              indicated that the ability to identify the point of entry for
                              insured mail would greatly enhance their ability to combat
                              internal crimes. We believe the Customer Claims Response
                              System should include a requirement to identify the
                              receiving facility in the Product Tracking System. This




                                               5
Indemnity Claims Process Redesign                                                OS-MA-01-001



                              enhancement could improve customer satisfaction by
                              helping employees locate lost or misplaced insured mail.
                              And, the change would provide postal inspectors with
                              information needed to investigate internal crimes.

 Suggestion                   We suggest that the vice president, Finance, Controller:

                              3. Coordinate with the vice president of Retail to determine
                                 the feasibility of modifying the Product Tracking and
                                 Customer Claims Response systems to identify the post
                                 office accepting insured mail.

 Management’s                 Management agreed with our suggestion. The functional
 Comments                     requirements document was updated to include capture of
                              the originating post office. The requirement document
                              dated April 13, 2000, includes the capture of data elements
                              from the product tracking system, which will identify the unit
                              ID and ZIP Code of the originating post office.

 Suggestion                   4. Determine the feasibility of using hand-held scanners to
                                 capture entry point identification data, where there are
                                 integrated retail terminals that are not capable of reading
                                 the bar codes on special service receipts.

 Management’s                 Management agreed with our suggestion and advised that
 Comments                     core business marketing was considering future
                              enhancements to the product tracking system and would
                              review the option of scanning at entry point. In the interim,
                              the originating post office will be captured on insurance
                              claim forms and entered into the claims database for
                              reporting purposes.

 Evaluation of                Actions taken or planned are responsive to suggestions 

 Management’s                 three and four. 

 Comments 





                                               6
Indemnity Claims Process Redesign	                                               OS-MA-01-001




 Record Retention             A change in record retention policy could facilitate false
                              insurance claim investigations and prosecutions and
                              increase security against unauthorized access to the
                              records.

                              Currently St. Louis maintains the original signed Domestic
                              Claim or Registered Mail Inquiry form (Form 1000) and
                              supporting documentation for a three-year period, as
                              required by the Postal Service Administrative Support
                              Manual 13. However, United States Code Title 18, section
                              3282 establishes a minimum five-year period of limitations
                              for commencing false claims prosecutions.

                              The Customer Claims Response System will eliminate the
                              need for the St. Louis Accounting Service Center to
                              maintain original claim forms and supporting documentation.
                              The responsibility for maintaining records will be transferred
                              to the local post office receiving the claim or to business
                              mailers under specific agreement with the Postal Service.
                              Under the Customer Claims Response System, the local
                              post office that receives the indemnity claim will assume
                              responsibility for the storage and retention of all documents
                              received from the customer. Consequently, local post
                              offices need secure storage areas for claims documents.
                              An analysis of secure storage requirements for local post
                              offices and business mailers is necessary to assess the
                              impact of the Customer Claims Response System.

                              In addition, business mailers who enter into agreements
                              with the Postal Service will also be affected because claims
                              can be entered directly into the claims database using either
                              the web-based application or through transmission of a file.
                              This will place new requirements on business customers to
                              retain documentation to support claims and access to
                              documents for review.

 Suggestion                   For the vice president, Finance, Controller:

                              5.	 Establish a record retention policy, which will require
                                  retention of records for a minimum of five years.

 Management’s                 Management disagreed with our suggestion to require
 Comments                     postal facilities and business mailers to retain all insurance




                                               7
Indemnity Claims Process Redesign	                                               OS-MA-01-001



                              claim records for five years or to have these records
                              forwarded to the St. Louis accounting service center for
                              imaging. However, the vice president offered an alternative
                              retention policy. This policy would require post offices to
                              forward the higher dollar value claims ($1,000 and over) to
                              the St. Louis accounting service center for storage for five
                              years. Claims under $1,000 will be maintained in the field
                              for 18 months.

 Suggestion                   6.	 Ensure that post office facilities have proper storage to
                                  maintain customer privacy and retain insurance claim
                                  forms and supporting documents.

 Management’s                 Management agreed with our suggestion that post office
 Comments                     facilities have proper storage to maintain customer privacy
                              and retain insurance claim forms. Instructions outlining the
                              proper storage procedures for insurance claim forms and
                              supporting documentation will be drafted and issued to the
                              field prior to deployment of the Customer Claims Response
                              System.

 Suggestion                   7. Require approved business mailers to maintain
                                 documentation to support insurance claims for a period
                                 of five years.

 Management’s                 Management disagreed with this suggestion. However, as
 Comments                     an alternative, management proposed that business mailers
                              be required to retain claims under $1,000 for eighteen
                              months and claims $1,000 and over for five years. The
                              Domestic Mail Manual guidelines for businesses filing
                              electronic claims would include this retention period.

 Suggestion                   8. As an alternative to local post offices maintaining
                                 records, determine the feasibility of using the Customer
                                 Claims Response System’s image workflow system as a
                                 method of retaining claims documentation.

 Management’s                 Management disagreed with our suggestion for records
 Comments                     retention. They indicated that forwarding all claims forms to
                              the Accounting Service Center for imaging would add
                              additional steps to the claims process and consequently
                              increase costs. As an alternative, management will require
                              that claims $1,000 and over be sent to the Accounting




                                               8
Indemnity Claims Process Redesign                                               OS-MA-01-001



                              Service Center for imaging, and that claims under $1,000
                              would be retained in the field for 18 months.

 Evaluation of                Although management disagreed with our suggested
 Management’s                 method of retaining claims documentation, the alternative
 Comments                     proposed by management is consistent with the intent of our
                              suggestion.

                              Management’s planned actions in response to suggestion
                              six and alternative actions proposed for suggestion five,
                              seven, and eight should correct the issues identified in this
                              report.




                                               9
Indemnity Claims Process Redesign                                                OS-MA-01-001




 Reliability of               Routine testing of claims transactions would validate
 Insurance Claims             application controls and enhance the reliability of data in the
 Data                         claims database.

                              The Customer Claims Response System as envisioned
                              would process claims through an automated payment
                              system in the St. Louis Accounting Service Center. If the
                              claim does not meet the criteria of specified edit checks, the
                              system generates letters to the claimant requesting the
                              needed documentation. Therefore, this automated process
                              would reduce the need for accounting service center
                              employees to conduct manual reviews of most claims.
                              Accounting service center employees will create
                              informational and edit check reports on claims data, but a
                              testing methodology for claims transactions needs to be
                              developed.

                              The General Accounting Office's Federal Information
                              Systems Controls Audit Manual provides that general
                              application controls should include the provision, detection,
                              and correction of any errors and irregularities as the
                              transactions flow through the financial information systems.

                              We believe that routine testing of transactions in the
                              Customer Claims Response System is necessary to
                              validate application controls. Testing could be
                              accomplished with statistically valid samples of claims to
                              ensure that results are projectable and reliable. Routine
                              testing of claims transactions would validate application
                              controls and enhance the reliability of data in the claims
                              database.

 Suggestion                   We suggest that the vice president, Finance, Controller:

                             9. Implement a test plan to validate application controls and
                                ensure the integrity and reliability of claims data.

 Management’s                 Management agreed with our suggestion and advised that
 Comments                     edits have been incorporated in the claims system that will
                              identify selected claims for review.




                                               10
Indemnity Claims Process Redesign	                                           OS-MA-01-001




 Evaluation of                Management’s comments are responsive to our suggestion.
 Management’s                 Actions taken or planned should validate application
 Comments                     controls and enhance the reliability of data in the claims
                              database.

                              We appreciate the cooperation and courtesies provided by
                              your staff during the review. If you have any questions,
                              please contact Gwen Johnson, director, Business
                              Operations Support, or me at 703-248-2300.



                              Debra S. Ritt
                              Assistant Inspector General
                               for Business Operations

                              cc: 	Richard D. Weirich
                                   Charles E. Bravo
                                   Patricia M. Gibert
                                   Edward L. Brown
                                   Kristine A. Wright
                                   Elvia L. Miller
                                   John R. Gunnels




                                              11
Indemnity Claims Process Redesign                    OS-MA-01-001



                   APPENDIX. MANAGEMENT’S COMMENTS




                                    12
Indemnity Claims Process Redesign        OS-MA-01-001




                                    13
Indemnity Claims Process Redesign        OS-MA-01-001




                                    14
